     -   0-994,
                               CLOSEOUT FOR EM94080027
                              OIG received a letter f r o m ~ 1 n v e s t i g a t o r / ~ c i e n t i s t ,
in the Division of Research Investigations of the Office of Research Integrity (the Office). The
investigator
that
       -        supplied OIG with a copy of the Office's report on its inves6gation into allegations
                                  the 'subject and presiddnt o                f

Service (the Agency). The investigator informed OIG of this case because one of the proposals
                                                                                              7 had
misrepresented his academic credentials in five research proposds submitted to the Public Health

under investigation stated that the subject had been a co-investigator on a proposal submitted to
NSF.
        The investigator informed 016 that the Agency had concluded that the subject had
committed misconduct in science, and it had executed a Voluntary Exclusion Agreement with
the subject.

Under the terms of the agreement the subject agreed to

       exclude himself voluntarily for a period of three (3) years from any contracting
       or subcontracting with any agency of the United States Government and from
       eligibility for, or involvement in, nonprocurement transactions (e.g. grants and
       cooperative agreements) of the United States Government. . . .

He also agreed that

       concurrent with the period of voluntary exclusion . . . [he would] exclude himself
       voluntarily from serving on any [Agency] Advisory Committees, Boards, and/or
       peer review committees for a period of three (3) years.

        OIG determined that the subject had submitted only one proposal to NSF and that the
proposal had been returned to the PI without review because it did not conform with the
instructions for proposal preparation. 016 reviewed the records of SBIR submissions by the
subject's company to other federal agencies and uncovered five declined groposals that had been
submitted to a second Agency. Three of these groposals contained false credential claims. OIG
informed the second Agency's OIG about these false claims.

        OIG compared the biographical sketch in the NSF proposal with those included in the
Office's report. The NSF sketch was identical to that found in the chronologically fust proposal
and virtually identical to the second proposal submitted to the Agency and included in the
Office's investigation. The NSF proposal was submitted two months after the fust Agency
proposal and two months before the second Agency proposal was submitted. The biographical

                                            Page 1 of 2                                      M94-27
                             CLOSEOUT FOR M9408002'7

sketches in all three proposals falsely stated that the subject had "completed his undergraduate
and graduate work in chemistry" and falsely identified two institutions of higher learning where
this work had been conducted. They also falsely claim that the subject held the position of
Director of Research at a corporation.

       The subject's false statements to NSF are identical to those found in two of the Agency
proposals discussed in the Office's report; however, unlike the Agency's proposals, this single
NSF proposal was returned to the PI without review because it did not meet particular
administrative screening criteria. Because the Agency's actions have effectively prevented the
subject from receiving, or benefiting from, federal support for three years, OIG concluded that
the Federal Government's interests were adequately protected and that there was no need for
NSF to take further action.

       Therefore OIG closed this inquiry and no further action in this case will be taken.

cc:    Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                         Page 2 of 2
